          AUDIT OF
  MANAGEMENT AND TRAINING
        CORPORATION
INDIRECT COST RATE PROPOSAL

    FOR THE YEAR ENDED
     DECEMBER 31, 1999




               U.S. DEPARTMENT OF LABOR
               OFFICE OF INSPECTOR GENERAL

               REPORT NO: 02-01-211-03-370
               DATE:      July 24, 2001
                                    TABLE OF CONTENTS

                                                                                                                           PAGE

ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

INTRODUCTION

          BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

          AUDIT OBJECTIVE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

          AUDIT SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

FINDING AND RECOMMENDATION

          QUESTIONED INDIRECT COSTS - $94,932 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

EXHIBITS

          A         SCHEDULE OF INDIRECT COSTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

          B         SCHEDULE OF DIRECT COSTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

APPENDIX

          MANAGEMENT AND TRAINING CORPORATION
          RESPONSE TO DRAFT REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
            ACRONYMS



CAS   Cost Accounting Standards


CFR   Code of Federal Regulations


CY    Calendar Year


FAR   Federal Acquisition Regulations


JCC   Job Corps Centers


MTC   Management and Training Corporation




                       -i-
                          EXECUTIVE SUMMARY

The U.S. Department of Labor, Office of Inspector General, conducted an audit of Management
and Training Corporation’s (MTC) final indirect cost proposal for Calendar Year (CY) 1999.
The audit objective was to determine if indirect costs of $14,628,218 were reasonable, allocable,
and allowable in accordance with applicable cost principles. Of the $14,628,218 indirect costs,
$10,553,680 or 72 percent was allocated to Job Corps.

MTC, a for-profit company, was founded in 1980. During CY 1999, MTC received total revenue
of $286 million. Of this amount, $216 million or 76 percent was provided by the Office of Job
Corps to operate 22 Job Corps Centers (JCC) and one job training and placement program. Each
JCC has a contractual indirect cost rate ceiling, which ranges from 5.85 to 6.30 percent.

Audit Results

Overall costs claimed by MTC were reasonable, allocable, and allowable. However, we question
$94,932 of indirect costs claimed which included compensation and center directors’ car
allowance of $85,449 recorded as indirect costs that should be reclassified as non-reimbursable
direct costs and added to the base. As a result, the proposed indirect cost rate for CY 1999
should be reduced from 5.87 to 5.81 percent, as shown below:

                                           Proposed        Questioned       Per Audit
      Allocated Indirect Costs            $10,553,680          $94,932      $10,458,748
      Direct Cost                        $179,889,423         ($85,449)    $179,974,872
      Indirect Cost Rate Percentage               5.87                              5.81


Questioned indirect costs of $94,932 are summarized below:

       •        We question $73,770 representing Job Corps’ share of executives’ compensation
                that exceeded the statutory salary ceiling of $125,900.

       •        We question $8,170 representing Job Corps’ share of the JCC directors’ car
                allowance that should have been allocated directly to the JCC based on benefits
                received.




                                                -1-
       •       We question $9,008 representing Job Corps’ share of audit fees related to the
               Corrections program. This service only benefited MTC’s Correction program and,
               therefore, should not be allocated to the Job Corps program.

       •       We question $3,984 representing Job Corps’ share of unallowable costs consisting
               of $3,421 for a golf outing and alcoholic beverages, and $563 for preparation of a
               gift tax return.

Recommendation

We recommend that the Assistant Secretary for Employment and Training ensures that MTC
apply a revised indirect cost rate of 5.81 percent to the direct costs of its JCC (Exhibit B) and
amend its billings accordingly.

Management and Training Corporation Response

The Senior Vice President responded to our draft report on July 2, 2001. He agreed with our
findings and questioned indirect costs of $34,346 for executive compensation ($13,184), JCC
directors’ car allowance ($8,170), costs other than JC ($9,008) and unallowable costs of
($3,984). However, he disagreed with $60,586 of the car allowance included in executive
compensation.

MTC’s response to the draft report has been incorporated in the report with our comments. It is
also included in its entirety as an Appendix.




                                                 -2-
                                INTRODUCTION

                           Job Corps was established in 1964 and is presently authorized under
 BACKGROUND                Title I, Subtitle C of the Workforce Investment Act of 1998. The
                           overall purpose of the program is to provide economically
                           disadvantaged youth with the opportunity to become more responsible,
employable citizens. With annual funding of over $1 billion, Job Corps is the largest Federal youth
employment and training program. Operations of the program are carried out mostly at
residential centers where students participate in intensive programs of academic training,
vocational training, work experience, and counseling.

MTC, a for-profit company, was founded in 1980. During CY 1999, MTC received total revenue
of $286 million. Of this amount, $216 million or 76 percent was provided by the Office of Job
Corps to operate 22 JCCs and one job training and placement program.

For CY 1999, MTC proposed an indirect cost rate of 5.87 percent, to be applied to total direct
costs (excluding government reimbursable capital expenditures), as shown below:

       Indirect Cost Pool                             $ 10,553,680
       Job Corps Direct Costs                         $179,889,423
       Indirect Cost Rate Percentage                          5.87

Each Job Corps Center has a contractual indirect cost rate ceiling which ranges from 5.85 percent
to 6.31 percent. The maximum allowable indirect cost on the contract is the ceiling rate or the
computed rate, whichever is lower.

         Center           Ceiling Rate                 Center           Ceiling Rate
         Atlanta               6.00                    Hawaii                5.90
         Atterbury             6.30                    Inland                5.93
         Cascades              6.00                    Keystone              5.93
         Charleston            6.00                    Kittrell              5.93
         Chicago               5.93                    Philadelphia          5.93
         Cincinnati            5.85                    Potomac               5.93
         Clearfield            6.00                    Red Rock              6.31
         Cleveland             6.00                    Sierra                5.93
         Dayton                5.93                    Springdale            5.92
         Denison               5.85                    Tongue Point          5.85
         Flint Hills           5.93                    Turner                5.93

                                                -3-
                           The audit objective was to determine if indirect costs claimed for CY
 AUDIT OBJECTIVE           1999 were reasonable, allocable, and allowable in accordance with
                           applicable cost principles. The cost principles set forth in the Federal
                           Acquisition Regulations (FAR), Cost Accounting Standards (CAS)
and Code of Federal Regulations (CFR) were used as criteria in evaluating the allowability of
costs claimed.


                              We audited CY 1999 indirect costs of $10,553,680 allocated to the
 AUDIT SCOPE and              Job Corps program. We examined the general ledger, financial
 METHODOLOGY                  statements, and other supporting documentation including vouchers
                              and invoices. We tested expenditures using a combination of
                              random and judgmental sampling techniques to test individual
account transactions.

Direct costs of $179,889,423, which were used as the base to compute the indirect cost rate, were
not audited. Nonetheless, direct costs were amended as a result of our audit by reclassifications
from the indirect cost pool.

We obtained an understanding of the internal controls through inquiries with appropriate
personnel, inspection of relevant documentation, and observation of MTC’s operation. The
nature and extent of our testing were based on a risk assessment.

The audit was performed using criteria we considered relevant. Criteria included the CFR Title
20, and the Federal contract cost principles set forth in FAR, Part 31. Also, other requirements in
the current contract were used as criteria in evaluating the allowability of claimed costs.

We conducted our audit in accordance with generally accepted auditing standards and standards
applicable to financial statements contained in Government Auditing Standards, issued by the
Comptroller General of the United States. We conducted fieldwork from March 12, 2001 to
March 29, 2001, at MTC’s corporate office located in Ogden, UT. Audit results were discussed
with MTC’s management at an exit conference on March 29, 2001.




                                                -4-
                  FINDING AND RECOMMENDATION

QUESTIONED INDIRECT COSTS - $94,932

Overall costs claimed by MTC were reasonable, allocable, and allowable. However, we question
$94,9321 of indirect costs claimed, which included compensation and center directors’ car
allowance of $85,449 recorded as indirect costs that should be reclassified as non-reimbursable
direct costs and added to the base. As a result, the proposed indirect cost rate for CY 1999
should be reduced from 5.87 to 5.81 percent, as shown below:

                                                 Proposed            Questioned         Per Audit
        Allocated Indirect Costs                $10,553,680              $94,932        $10,458,748
        Direct Cost                            $179,889,423            ($85,449)      $179,974,872
        Indirect Cost Rate Percentage                     5.87                                   5.81

Questioned costs of $94,932 are presented below:

                                     Description                        Amount
                           Executive Compensation                      $73,770
                           Car allowances                                8,170
                           Cost - Other than Job Corps                   9,008
                           Unallowable Costs                             3,984
                            Total                                      $94,932




        1
           This amount represents Job Corps portion of total questioned costs. The percentages allocated to Job
Corps depended on the cost pool allocated. For cost pools I, II and III, the Job Corps percentages were 75.06,
99.43 and 98.43 percent, respectively.

                                                       -5-
                                  Seven executives of MTC received compensation which
 Executive Compensation           exceeded Job Corps statutory salary ceiling of $125,900. This
                                  occurred because MTC did not include employer contributions
                                  to a defined contribution pension plan and monthly car
allowances paid to MTC executives as compensation. As a result, we question $73,770
representing Job Corps share of executive compensation of $77,149 in excess of the ceiling.
Public Law 105-277, Statute 2681-346, Sec. 101 states:

       None of the funds appropriated in this title for the Job Corps shall be used to pay the
       compensation of an individual, either as direct costs or any proration as an indirect cost,
       at a rate in excess of Executive Level III.2

FAR 31.205-6(p)(2)(i) states:

       Compensation means total amount of wages, salary, bonuses, deferred compensation (see
       paragraph (k) of this subsection), and employer contributions to defined contribution
       pension plans (see paragraphs (j)(5) and (j)(8) of this subsection) for the fiscal year,
       whether paid, earned, or otherwise accruing, as recorded in the contractors cost
       accounting records for the fiscal year.

MTC voluntarily excluded executive salaries in excess of Job Corps’ statutory salary ceiling of
$125,900. However, compensation for employer contributions to a defined contribution pension
plan and monthly car allowances paid to MTC executives were not excluded. Car allowances
paid to MTC executives should have been included in the total amount of employee
compensation, since employees received a set monthly allowance of $1,100, and did not have to
document their expenses. Therefore, this is not a reimbursement of expenses, it is additional
compensation.

MTC Response

       We agree that the employer contributions to defined contribution pension plans were
       inadvertently omitted from the calculation for the limitation of executive compensation.
       The employer contributions to defined contribution pension plans would have amounted
       to a total disallowable amount of $13,184 of the $73,770.

       As far as the remaining amount, which represents car allowances, we believe that the
       FAR defines what is compensation and what should be included in the limitation of
       compensation. . . .

       The FAR is very specific as to what total compensation means in reference to this
       paragraph of the limitation of compensation. It does not include car allowances paid as
       an item to be included in the limitation. We agree that car allowances are compensation

       2
           The CY 1999 Executive Level III annual salary was $125,900.

                                                     -6-
       and would be an item that would be included as compensation as noted in paragraph (a)
       where compensation is defined and begins “It includes, but is not limited to, “and then
       gives a listing of various types of compensation. However, paragraph (p)(2) states “As
       used in this paragraph:” then goes farther to specifically define the limitations on the
       what compensation is to be limited. We believe that we properly excluded the car
       allowances from the limitation according to the FAR. Our premise is that car
       allowances are compensation, but not a limited compensation for the purposes of the
       noted paragraph and should be allowed. This would result in a difference with the
       finding of $60,586. . . .

OIG Comment

We do not agree. These funds were provided to certain executives and were included as wages
on the employees’ Form W-2, Wage and Tax Statements. Although classified as “Car
Allowances” on MTC’s books, the compensation was not a reimbursement of actual expenses,
but additional employee wages.


                                   One month of car allowances of $8,300 paid to nine JCC
 JCC Directors                     directors were allocated to the indirect cost pool. Car
 Car Allowances                    allowances of JCC directors directly benefit the JCC and
                                   should be directly charged to the specific contract. As a
                                   result, we question $8,170 representing Job Corps’ share
(98.43 percent) of the $8,300 charged. FAR 31.202 (a) states:

       . . . . Costs identified specifically with the contract are direct costs of the contract and
       are to be charged directly to the contract. . . .

MTC Response

       We agree that the amount was improperly included for one month. It should be noted
       that this was an oversight and only occurred for that one month when the individual that
       normally does this work was out on leave.


                                  MTC allocated a fee paid to the accounting firm KPMG Peat
 Costs - Other than Job           Marwick for preparing financial statements for the Correction’s
 Corps                            program. The audit fee was exclusively for another program
                                  and did not benefit the Job Corps program. Therefore, this
                                  cost should have been allocated to the Corrections program
based on benefits received. As a result, we question $9,008 representing Job Corps’ share (75.06
percent) of $12,000 in accounting fees included in the indirect cost pool. FAR 31.202(a) states:




                                                 -7-
       A direct cost is any cost that can be identified specifically with a particular final cost
       objective. . . . All costs specifically identified with other final cost objectives of the
       contractor are direct costs of those cost objectives and are not to be charged to the
       contract directly or indirectly.

MTC Response

       After reviewing the documentation we are in agreement with the finding.

                                   Unallowable costs of $3,984 representing Job Corps’ share
 Unallowable Costs                 (75.06 percent) of $5,308 consisting of $3,630 for a golf
                                   outing, $928 for alcoholic beverages and $750 for preparation
                                   of an individual gift tax return. As a result we question
$3,984. FAR 31.205-14 states:

       Costs of amusement, diversions, social activities, and any directly associated costs such
       as tickets to shows or sports events, meals, lodging, rentals, transportation, and gratuities
       are unallowable.

Regarding the unallowable cost for alcoholic beverages, FAR 31.205-51 states:

       Costs of alcoholic beverages are unallowable.

The unallowable costs for preparation of an individual gift tax return, FAR 31.201-4 states:

       A cost is allocable if it is assignable or chargeable to one or more cost objectives on the
       basis of relative benefits received or other equitable relationship. Subject to the
       foregoing, a cost is allocable to a Government contract if it: (a) Is incurred specifically
       for the contract. . . .

MTC Response

       In reviewing these costs, we were able to determine that the staff did not follow the
       process in coding the disbursement properly. We agree with this finding.

Recommendation

We recommend that the Assistant Secretary for Employment and Training ensures that MTC
apply the revised indirect cost rate of 5.81 percent to direct costs of its JCC (Exhibit B) and
amend its billings accordingly.




                                                -8-
                                                                     Exhibit A

                 Management and Training Corporation
                      Schedule of Indirect Costs
                  For Year Ended December 31, 1999


Cost Center                 Proposed    Questioned      Per Audit
Executive Office            $671,687       $3,421        $668,266
Finance                    1,645,291        9,571       1,635,720
Corps. Info. System          883,002                      883,002
Special Services             114,375                      114,375
Communications               227,205                      227,205
Human Resources            1,391,374        8,726       1,382,648
Internal Audit               140,967                      140,967
Risk Management              152,470                      152,470
Program Design &
Development                  319,610                      319,610
Contract Administration      469,792                      469,792
Training Programs          1,286,044       54,660       1,231,384
Eastern NE Region            613,331                      613,331
SE Region Office             746,393                      746,393
Central Region Office        725,892                      725,892
Job Corps B&P                485,578                      485,578
Western Region               680,669       18,554        662,115
Total                     $10,553,680    $94,932       $10,458,748




                                 -9-
                                                                         Exhibit B

                    Management and Training Corporation
                          Schedule of Direct Costs
                     For Year Ended December 31, 1999



 Contract                                             Reclassified  Revised
Number            Center                Direct Costs From Indirect Direct Costs
13-6-0011-43     Atlanta                   $8,210,078                 $8,210,078
5-JC-952-18      Atterbury                 11,128,568                 11,128,568
13-4-0011-43     Brunswick                     40,139                     40,139
JC-RX-95-01      Cascades                   5,593,139                  5,593,139
3-JC-546-54      Charleston                 7,461,174                  7,461,174
5-JC-970-17      Chicago                    4,945,269                  4,945,269
5-JC-950-39      Cincinnati-Old             1,835,115                  1,835,115
5-JC-971-39      Cincinnati-New             3,051,234                  3,051,234
JCC-4007-49      Clearfield                22,026,190                 22,026,190
5-JC-958-39      Cleveland                  6,218,046                  6,218,046
5-JC-946-39      Dayton-Old                      (30)                       (30)
5-JC-965-39      Dayton-New                 5,495,321                  5,495,321
JCC-3004-19      Denison-Old                    5,085                      5,085
JCC-8001-19      Denison-New                5,489,375                  5,489,375
JCC-5008-20      Flint Hills                4,979,810                  4,979,810
EA-001-6-00-15   Hawaii                     8,647,031                  8,647,031
EA-006-5-00-06   Inland                     6,491,443                  6,491,443
3-JC-614-42      Keystone                  11,059,233                 11,059,233
37-7-0005-43     Kittrell                   6,217,369                  6,217,369
3-JC-654-42      Philadelphia               4,306,570                  4,306,570
3-JC-619-11      Potomac                    9,906,129                  9,906,129
3-JC-555-42      Red Rock                   5,598,819                  5,598,819
JC-4-22-00033    Shreveport                 3,880,038                  3,880,038
UNR-6247         Sierra                     8,518,609                  8,518,609
JC-RX-94-01      Springport / Pivot-Old     3,560,322                  3,560,322
JC-RX-98-02      Springport / Pivot-New       939,764                    939,764
JC-RX-94-02      Tongue Point               6,227,316                  6,227,316
JC-RX-98-01      Tongue Point               2,101,997                  2,101,997
13-7-0002-43     Turner                    15,296,353                 15,296,353
                 Non-Reimbursable             659,917        85,449      745,366
                   Total Direct Costs   $179,889,423      $85,449 $179,974,872




                                        -10-
